Summary of Credit Terms
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

BMO Harris Bank Platinum Mastercard

®

0% introductory APR for six months from account opening date. After that, your APR
will be 11.99%, 13.99%, 16.99% or 18.99% based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0% introductory APR for 15 months from date of first transfer when transfers are
completed within 90 days from date of account opening. After that, your APR will be
11.99%, 13.99%, 16.99% or 18.99% based on your creditworthiness. This APR will vary
with the market based on the Prime Rate.

APR for Cash Advances

24.24% This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on Your due date is at least 21 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
Purchases
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.
Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

None
• Either $10 or 4% of the amount of each balance transfer, whichever is greater.
• Either $10 or 5% of the amount of each cash advance, whichever is greater.
• 3% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Returned Payment

• Up to $39
• Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).” See
your Credit Card Cardholder Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the standard APR if you make a late payment.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the same type occurs
within six billing cycles, we will charge up to the maximum fee in the table above. The Late Payment and Returned Payment
fees will not exceed the related Minimum Payment Due.
Promotional/Introductory Rates and Your Grace Period: If you take advantage of an offer with an introductory or
promotional APR, we will charge you interest on new Purchases, unless your new Purchases have a 0% APR, or you pay
your Account balance, including any Balance Transfers and Cash Advances, in full each month by your payment due date.
BMO Harris Bank N.A. is the issuer of BMO Harris credit cards.
NOTICE TO MARRIED WISCONSIN RESIDENTS: No provision of a marital property agreement, unilateral statement or court decree adversely affects our
rights unless we get a copy of the agreement, statement or decree before we grant you credit. You agree that any credit granted will be used in the interest
of your marriage or family. State law may require us to give notice of this credit card account to your spouse.
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and that
credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission administers compliance
with this law.
NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services by telephone or visit its website for free
information on comparative credit card rates, fees and grace periods. New York State Department of Financial Services: 1-800-342-3736 or
http://www.dfs.ny.gov.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the funding of terrorism and
money laundering activities, Federal law requires all financial institutions to obtain, verify and record information that identifies each person who opens an
account. What this means for you: When you open an account, we will ask for your name, address, date of birth and other information that will allow us to
identify you. We may also ask to see your driver’s license or other identifying documents.

Mastercard® is a registered trademark of Mastercard International Incorporated. Banking products and services are provided by BMO Harris Bank N.A. and
are subject to bank and credit approval. Member FDIC. © 2021 BMO Harris Bank N.A. All Rights Reserved. (04/01/21)
bmoharris.com

